TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                 A Complete Certification and Accreditation
                  Is Needed to Ensure the Electronic Fraud
                Detection System Meets Federal Government
                            Security Standards



                                      September 29, 2006

                              Reference Number: 2006-20-178




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 2(d) = Law Enforcement Technique(s)
 2(e) = Law Enforcement Procedure(s)


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2006


 MEMORANDUM FOR CHIEF INFORMATION OFFICER
                CHIEF, MISSION ASSURANCE AND SECURITY SERVICES
                CHIEF, CRIMINAL INVESTIGATION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – A Complete Certification and Accreditation Is
                             Needed to Ensure the Electronic Fraud Detection System Meets Federal
                             Government Security Standards (Audit # 200620040)

 This report presents the results of our review to assess the effectiveness of security controls over
 the Electronic Fraud Detection System (EFDS) by evaluating its certification and accreditation
 (C&A) packages.

 Impact on the Taxpayer
 The EFDS, an automated compliance system, was designed to maximize fraud detection at the
 time tax returns are filed to prevent the issuance of questionable refunds. Security certifications
 conducted for the EFDS have been incomplete since October 2001, resulting in limited assurance
 that EFDS security controls are effective in protecting taxpayer information from unauthorized
 disclosure. This is especially significant because the EFDS contains the Internal Revenue
 Service’s (IRS) second largest repository of taxpayer information.

 Synopsis
 The IRS uses its enforcement authority to collect taxes due from individuals who do not fulfill
 their tax obligations. The IRS Criminal Investigation function is responsible for detecting and
 investigating criminal violations of the Internal Revenue Code and financially related crimes.
 The EFDS is the primary system used by the Criminal Investigation function to identify
 questionable tax return refunds.
                  A Complete Certification and Accreditation Is Needed to Ensure
                      the Electronic Fraud Detection System Meets Federal
                                 Government Security Standards


Since its initial development in 1995, the EFDS has gone through significant changes. The
EFDS began as a client server application, allowing users to access the application through the
IRS network. In June 2001, the IRS approved the conversion to a web-based application, which
would enable users to access the EFDS through the IRS Intranet. While the web-based
application was under development, the client server application continued to operate. The
web-based application was expected to be available to process tax returns in 2006, so the client
server application was shut down in December 2005. However, the web-based application never
became operational. In April 2006, the IRS decided to restore the client server application to
process tax returns in 2007.
Because the EFDS contains and processes highly sensitive taxpayer information, the security
over the system is paramount to ensure all data are protected from unauthorized access and
misuse. To ensure systems are secure, Federal Government Security Standards1 dictate that all
systems and applications be certified and accredited every 3 years or when major changes are
made to the system. The Mission Assurance and Security Services (MA&SS) organization has
responsibility to certify IRS systems. Part of that role is to ensure security controls are
adequately tested. The system owner uses the results of those tests to authorize the system’s
operation and by doing so accepts the risks associated with that system.
Overall, the security controls for the EFDS have not been adequately tested since October 2001.
As a result, system owners accredited the systems with only limited assurance that security
controls were effective to protect taxpayer information from being inappropriately accessed or
misused. Our review assessed three separate components of the EFDS: the client server
application,2 the web-based application,3 and the computers supporting the EFDS application.
When the EFDS client server application was certified and accredited in August 2004, the testing
to support the certification did not follow IRS policies and Federal Government Security
Standards. Key application security controls were not tested. Instead, the C&A was based solely
on the security of the supporting Windows-based operating system.
Tests were not adequate because the MA&SS organization omitted steps in the certification
process in order to meet its goal of certifying and accrediting 100 percent of IRS systems by the
end of Fiscal Year 2004. Emphasis was placed on ensuring system owners signed accreditation
memoranda rather than performing adequate tests. In the fourth quarter of Fiscal Year 2004, the
IRS certified and accredited 30 major applications, which included the EFDS, representing over
one-half of its inventory of major applications at the time.
Prior to the IRS’ decision to stop all development of the EFDS web-based application, we
evaluated its January 2006 C&A to determine whether it met IRS security standards. We


1
  Appendix III to Office of Management and Budget Circular A-130, Security of Federal Automated Information
Resources.
2
  The client server application allows users to access the EFDS system internally on the network.
3
  A system development effort that would allow users to access the EFDS via the IRS Intranet.
                                                                                                              2
               A Complete Certification and Accreditation Is Needed to Ensure
                   the Electronic Fraud Detection System Meets Federal
                              Government Security Standards


Business Operating Divisions, to determine the recovery priority for critical business processes
and major applications. Management’s complete response to the draft report is included as
Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.




                                                                                                   4
                     A Complete Certification and Accreditation Is Needed to Ensure
                         the Electronic Fraud Detection System Meets Federal
                                    Government Security Standards




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Security Controls for the Electronic Fraud Detection System Client
          Server Application Have Not Been Adequately Tested Since 2001.............Page 4
                    Recommendation 1:..........................................................Page 6

          If the Web-Based Electronic Fraud Detection System Had Become
          Operational, It May Have Allowed Unauthorized Access to Taxpayer
          Information ...................................................................................................Page 6
                    Recommendation 2:..........................................................Page 7

          Unresolved Weaknesses at the Enterprise Computing Center-Memphis
          May Affect the Security and Recovery of the Electronic Fraud Detection
          System Client Server Application.................................................................Page 8
                    Recommendation 3:..........................................................Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 10
          Appendix II – Major Contributors to This Report ........................................Page 11
          Appendix III – Report Distribution List .......................................................Page 12
          Appendix IV – Management’s Response to the Draft Report ......................Page 13
        A Complete Certification and Accreditation Is Needed to Ensure
            the Electronic Fraud Detection System Meets Federal
                       Government Security Standards




                        Abbreviations

BIA                 Business Impact Analysis
C&A                 Certification and Accreditation
CI                  Criminal Investigation
ECC-MEM             Enterprise Computing Center-Memphis
EFDS                Electronic Fraud Detection System
FY                  Fiscal Year
IRS                 Internal Revenue Service
MA&SS               Mission Assurance and Security Services
NIST                National Institute for Standards and Technology
POA&M               Plan of Actions and Milestones
PY                  Processing Year
                  A Complete Certification and Accreditation Is Needed to Ensure
                      the Electronic Fraud Detection System Meets Federal
                                 Government Security Standards




                                          Background

The Internal Revenue Service (IRS) uses its enforcement authority to collect taxes due from
individuals who do not fulfill their tax obligations. Noncompliance may not be deliberate and
can stem from a wide range of causes, including lack of knowledge, confusion, poor record
keeping, differing legal interpretations, unexpected personal emergencies, and temporary cash
flow problems. However, some noncompliance may be willful, even to the point of criminal tax
evasion. The IRS Criminal Investigation (CI) function is responsible for detecting and
investigating criminal violations of the Internal Revenue Code and financially related crimes.
The Electronic Fraud Detection System (EFDS), an
automated compliance system, is the primary
information system used to support the CI function’s                The EFDS is used to maximize
                                                                    fraud detection at the time that
Questionable Refund Program.1 The EFDS was                          tax returns are filed to prevent
designed to maximize fraud detection at the time that tax            the issuance of questionable
returns are filed to prevent the issuance of questionable                      refunds.
refunds. It is generally harder and more costly to
recover fraudulent refunds once they have been issued.
Since its initial development in 1995, the EFDS has gone through significant changes. In
June 2001, the IRS approved the conversion of the existing client server application2 to a
web-based application.3 From Processing Years (PY)4 2001 through 2005, the client server
application continued to operate as the web-based application was under development. The new
application was initially expected to be available for PY 2005, but was subsequently delayed
until PY 2006 due to system development problems. In December 2005, the client server
application was shut down because of the impending release of the web-based application.
However, the web-based application never became operational. In April 2006, the IRS decided
to restore the client server application for PY 2007.
Because the EFDS contains and processes highly sensitive taxpayer information, the security
over the system is paramount to ensure all data are protected from unauthorized access and
misuse. Federal Government Security Standards issued by the Office of Management and
Budget5 require that all systems and applications must be certified and accredited every 3 years


1
  A nationwide program established to detect and stop fraudulent claims for refunds on income tax returns.
2
  The client server application allows users to access the EFDS system internally on the IRS network.
3
  A system development effort that would allow users to access the EFDS via the IRS Intranet.
4
  A PY is the year in which tax returns and other tax data are processed by the IRS.
5
  Appendix III to Office of Management and Budget Circular A-130, Security of Federal Automated Information
Resources.
                                                                                                       Page 1
                  A Complete Certification and Accreditation Is Needed to Ensure
                      the Electronic Fraud Detection System Meets Federal
                                 Government Security Standards



or when major changes to systems occur. Guidelines issued by the National Institute for
Standards and Technology (NIST)6 further describe this certification and accreditation (C&A)
process, which includes the following three phases:
    •   Initiation: A categorization of the sensitivity of the system as high, moderate, or low risk.
        During this phase, the system security plan should be updated. The system security plan
        provides an overview of the security requirements for the system and describes the
        security controls in place or planned for meeting those requirements.
    •   Certification: A comprehensive assessment of the management, operational, and
        technical security controls in a system. Security controls testing of a system is performed
        to support the assessment, which is documented in a security assessment report. Any
        weaknesses identified during the testing are listed in a plan of actions and milestones
        (POA&M), which is monitored and updated until the weaknesses are corrected.
    •   Accreditation: An official management decision made by a senior agency official to
        authorize operation of an information system and to explicitly accept the risk to agency
        operations, agency assets, or individuals based on the implementation of an agreed-upon
        set of security controls.
The Mission Assurance and Security Services (MA&SS) organization has responsibility to
certify IRS systems. Part of that role is to ensure security controls are adequately tested. The
system owner uses the results of those tests to authorize the system’s operation and, by doing so,
accepts the risks associated with that system.
The IRS has a long-standing computer security material weakness,7 which includes the C&A
process. We have issued several reports critical of the IRS C&A process, with the most recent
issued in August 2004.8 We also commented in our Fiscal Year (FY) 2005 report for the Federal
Information Security Management Act of 20029 on the IRS’ improvements and continuing
struggles with its C&A process.
We initiated this audit to review the EFDS security controls. Two other audits were initiated to
answer questions raised by the House Ways and Means Subcommittee on Oversight regarding
the EFDS. One audit was performed to determine whether the IRS effectively managed annual
programming changes and requested modifications to the EFDS prior to

6
  The NIST, under the Department of Commerce, is responsible for developing standards and guidelines, including
minimum requirements, for providing adequate information security for all Federal Government agency operations
and assets.
7
  The Department of the Treasury defines a material weakness as “shortcomings in operations or systems which,
among other things, severely impair or threaten the organization’s ability to accomplish its mission or to prepare
timely, accurate financial statements or reports.”
8
  The Certification and Accreditation of Computer Systems Should Remain in the Computer Security Material
Weakness (Reference Number 2004-20-129, dated August 2004).
9
  Pub. L. No. 107-347, Title III, 116 Stat. 2946 (2002).
                                                                                                           Page 2
                   A Complete Certification and Accreditation Is Needed to Ensure
                       the Electronic Fraud Detection System Meets Federal
                                  Government Security Standards



PY 2006.10 Another audit (Audit Number 200610003) is being performed to determine the
effectiveness of the IRS’ procedures for detecting fraudulent and potentially fraudulent refund
returns (including inventory controls) and the timely and proper hold and release of refunds.
In addition, in June 1999 we reported11 that the EFDS had numerous security weaknesses,
including inadequate audit trails12 and contingency plans. Our review of the IRS’ corrective
actions to recommendations in this report determined the weaknesses identified in the report
have been adequately addressed.
Our review was performed at the MA&SS organization in New Carrollton, Maryland, during the
period March through June 2006. The audit was conducted in accordance with Government
Auditing Standards. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




10
   The Electronic Fraud Detection System Redesign Failure Resulted in Fraudulent Returns and Refunds Not Being
Identified (Reference Number 2006-20-108, dated August 2006).
11
   Review of the Electronic Fraud Detection System (Reference Number 093009, dated June 1999).
12
   A chronological record of system activities that is sufficient to permit reconstruction, review, and examination of
a transaction from inception to final results.
                                                                                                               Page 3
                   A Complete Certification and Accreditation Is Needed to Ensure
                       the Electronic Fraud Detection System Meets Federal
                                  Government Security Standards




                                       Results of Review

Security Controls for the Electronic Fraud Detection System Client
Server Application Have Not Been Adequately Tested Since 2001
IRS policies and Federal Government Security Standards require security controls for all major
applications13 be independently assessed, certified, and accredited at least every 3 years. Regular
testing of security controls is necessary to determine the extent to which the controls are
implemented correctly, operating as intended, and meeting the security requirements for the
system. Failure to regularly test security controls can result in undetected security weaknesses
that place taxpayer information at risk of unauthorized
disclosure, potentially resulting in identity theft or other        Insufficient security controls
privacy violations. For the EFDS, insufficient security            for the EFDS, the IRS’ second
controls could place millions of taxpayer records at risk for      largest repository of taxpayer
unauthorized access or modification, as the EFDS is the               information, could place
                                                                  millions of taxpayer records at
IRS’ second largest repository of taxpayer information.           risk of unauthorized access or
Security controls for applications are generally provided                    modification.
through the operating system (e.g., Windows) on which
they reside and by the application itself. To reduce the
resources required for certification, operating system controls do not have to be retested for each
application. However, the application’s security controls must be tested. These controls are
often the last line of defense for protecting the confidentiality, integrity, and availability of
sensitive information.
Application security controls for the EFDS client server application were last tested in
October 2001 as part of the certification that was signed in April 2002. The October 2001 testing
identified 10 high-risk weaknesses that have since been addressed.
In August 2004, the EFDS was again certified and accredited. However, this C&A relied on
certification of the Windows-based computers supporting the system and did not include testing
of the client server application security controls. The application controls are critical for
ensuring the confidentiality, integrity, and availability of taxpayer information in the EFDS. As




13
  Major applications are a category of applications used by the IRS that require special attention to security because
of the severe adverse effect that compromise of those applications would have on the IRS mission, tax
administration functions, and/or employee welfare.
                                                                                                              Page 4
                   A Complete Certification and Accreditation Is Needed to Ensure
                       the Electronic Fraud Detection System Meets Federal
                                  Government Security Standards



such, this August 2004 EFDS client server application C&A provided only limited assurance that
the EFDS security controls were adequate.14
Application security controls were not tested because the MA&SS organization omitted steps in
the certification process in order to meet its goal of certifying and accrediting 100 percent of IRS
systems by the end of FY 2004. Specifically, instead of performing a full certification on each
system, the MA&SS organization focused on obtaining signed accreditation memoranda from
system owners. As a result, many systems were accredited without adequate documentation and
security testing. In the fourth quarter of FY 2004, the IRS certified and accredited 30 major
applications, including the EFDS, representing 57 percent of the IRS’ inventory of major
applications at the time.
The Chief, MA&SS, provided us with his perspective on the FY 2004 C&A activities. The
Chief informed us that, upon assuming his new position in FY 2004, he quickly discovered the
IRS processes for C&A were incomplete and not in accordance with Office of Management and
Budget Circular A-130 guidance. Of greatest concern was the fact that very few applications or
systems had been accredited by the system owners or the Chief Information Officer. Because the
systems were already in operation, the Chief, MA&SS, indicated his intent was to have system
owners sign accreditation memoranda for all major systems so they would recognize their
responsibilities for accepting the risks associated with their systems.
At the end of FY 2004, the IRS initiated a major effort to at least get a signed accreditation
memorandum in place for every major application and general support system. The MA&SS
organization’s review of the security documentation of many systems at that time, including the
EFDS, revealed that Security Plans and other security documentation were incomplete and did
not contain the level of detail necessary to accurately capture all security considerations.
While accreditation is an important and a required step in the C&A process, NIST guidelines15
state, “it is essential that agency officials have the most complete, accurate, and trustworthy
information possible on the security status of their information systems in order to make timely,
credible, risk-based decisions on whether to authorize operation of those systems.” Because the
EFDS client server application was tested inadequately, we believe the system owner signed the
accreditation without a full understanding of the status of EFDS security controls.




14
   During Fiscal Year 2004, the IRS decided to recategorize its C&A approach to include general support systems,
major applications, and other applications. The IRS assigned all of its other applications to a general support system
with the assumption that the general support systems provide the majority of the security controls for the other
applications.
15
   NIST Special Publication 800-37, Guide for the Security Certification and Accreditation of Federal Information
Systems.
                                                                                                              Page 5
               A Complete Certification and Accreditation Is Needed to Ensure
                   the Electronic Fraud Detection System Meets Federal
                              Government Security Standards



Recommendation
Recommendation 1: The Chief, MA&SS, should coordinate with the Chief, CI, to complete
a full security C&A package for the EFDS client server application and supporting computers
before the system is permitted to operate.
       Management’s Response: The Chief, MA&SS, has already begun coordination with
       the Chief, CI, to complete a full security C&A of the EFDS which will be conducted
       prior to the EFDS being placed into operation for the next tax filing season. This C&A
       will be based on currently available draft and final versions of Federal Government
       security process guidance. The EFDS application security controls will be tested based
       on NIST guidance as well as any other available security controls testing process
       guidance from other Government organizations and industry best practices.

If the Web-Based Electronic Fraud Detection System Had Become
Operational, It May Have Allowed Unauthorized Access to Taxpayer
Information
Prior to the IRS decision in April 2006 to stop all system development activities for the EFDS
web-based application, we evaluated the effectiveness of its
January 2006 C&A to determine whether it would have met          Required security controls for
IRS security standards. Our review identified problems               the EFDS web-based
with the completeness of security controls testing and the       application were not tested as
                                                                        part of its C&A.
IRS process for reporting omitted security control tests.
Specifically, key security controls in the following areas
were not tested as part of the C&A process:
   •   Data integrity, which ensures data processed by the system are accurate, complete, valid,
       and protected.
   •   Transmission confidentiality, which ensures communications through the EFDS
       web-based application are encrypted to protect information, such as user passwords and
       taxpayer information, during transmission between the EFDS application and a user’s
       computer.
   •   User authorizations, which ensure users are authorized to access the system.
Controls in these areas are required by IRS policies and the EFDS security plan. In addition,
they are included in the required set of controls for high-risk Federal Government systems
specified by the NIST. This is not the first time IRS management has omitted tests in C&A
packages for the EFDS. Our review of the 2002 C&A for the client server application also
identified omitted security tests. Specifically, two configuration management tests were omitted


                                                                                           Page 6
                A Complete Certification and Accreditation Is Needed to Ensure
                    the Electronic Fraud Detection System Meets Federal
                               Government Security Standards



because the tools needed to execute the tests were not available. No alternative tests were
performed to ensure the controls were adequate.
By not testing these controls, the IRS had limited assurance that sensitive taxpayer information
stored, processed, and transmitted by the EFDS web-based application would have been accurate
and reliable. In addition, there are limited assurances this sensitive information would have been
protected from unauthorized access, modification, or deletion.
The MA&SS organization did not adequately follow the certification process in testing the EFDS
due to the imminent implementation date of the System. Testing was conducted in 1 day only a
few weeks prior to implementation. In addition, testing was performed on the EFDS training
system and not the actual EFDS production system. IRS management informed us that the 2005
version of the System was unusable for testing since it was undergoing significant changes and
the EFDS training system was the best system available to use at that time. However, they also
informed us that, due to the volume of changes being made to the production web-based
application, they were unable to mirror those changes on the training system. Because the
training system did not have actual EFDS data or follow IRS user authorization processes, tests
for data integrity, user authorization, and transmission confidentiality controls were not
performed.
In addition, the MA&SS organization did not prominently disclose the omitted tests in the C&A
report. While the omitted tests were identified in the report appendices, they were not discussed
in the body of the security test report or the security assessment report. Consequently, the
system owners may not have seen all of the necessary information on the status of security
controls to make an appropriate decision on whether to accredit the system.
We recognize the IRS has ceased development of the web-based application. As such, the
recommendation for this finding pertains to any future C&A work on the EFDS application.

Recommendation
Recommendation 2: If the EFDS web-based application is redeployed, the Chief, MA&SS,
should ensure the certification process fully discloses and explains any omitted tests for security
controls and the associated risks in the body of the security testing report and the security
assessment report. In addition, criteria should be included for identifying compensating tests and
establishing plans for follow-up testing for control tests omitted during the certification.
       Management’s Response: Although the EFDS web-based application is not being
       redeployed in 2007, the Chief, MA&SS, will update its processes to ensure that all
       security testing reports and security assessment reports for EFDS and all other IRS
       systems explain any omitted tests and the associated risks. The process will ensure
       criteria will be included for identifying compensating tests and establishing plans for
       follow-up testing for omitted control tests.

                                                                                              Page 7
                A Complete Certification and Accreditation Is Needed to Ensure
                    the Electronic Fraud Detection System Meets Federal
                               Government Security Standards



                                                                                    Appendix I

        Detailed Objective, Scope, and Methodology

The overall objective of this review was to assess the effectiveness of security controls over the
EFDS by evaluating its C&A packages. To accomplish this objective, we:
I.     Determined whether the C&A packages for the EFDS client server and web-based
       applications and the infrastructure at the ECC-MEM effectively identified and addressed
       security control weaknesses.
       A. Determined whether the IRS developed an adequate security plan.
       B. Determined whether the IRS identified and tested the significant security controls for
          the system and adequately addressed identified security weaknesses.
       C. Assessed whether the C&A decisions were justified.
       D. Assessed the adequacy of the contingency planning documents.
II.    Determined whether security weaknesses identified in our report entitled Review of the
       Electronic Fraud Detection System (Reference Number 093009, dated June 1999) were
       adequately addressed in the C&A process.
       A. Identified the status of IRS corrective actions to the report recommendations.
       B. Determined whether C&A testing adequately addressed the security weaknesses
          identified in the report.




                                                                                           Page 10
               A Complete Certification and Accreditation Is Needed to Ensure
                   the Electronic Fraud Detection System Meets Federal
                              Government Security Standards



                                                                              Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Kent Sagara, Acting Director
Marybeth Schumann, Audit Manager
Michael Howard, Lead Auditor
Richard Borst, Senior Auditor
Jody Kitazono, Senior Auditor
Thomas Nacinovich, Senior Auditor
Stasha Smith, Senior Auditor




                                                                                     Page 11
              A Complete Certification and Accreditation Is Needed to Ensure
                  the Electronic Fraud Detection System Meets Federal
                             Government Security Standards



                                                                       Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Chief Information Officer OS:CIO
Deputy Chief, Mission Assurance and Security Services OS:MA
Associate Chief Information Officer, Enterprise Operations OS:CIO:EO
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Chief, Mission Assurance and Security Services OS:MA
       Director, Program Oversight Office OS:CIO:SM:PO




                                                                             Page 12
   A Complete Certification and Accreditation Is Needed to Ensure
       the Electronic Fraud Detection System Meets Federal
                  Government Security Standards



                                                     Appendix IV

Management’s Response to the Draft Report




                                                           Page 13
A Complete Certification and Accreditation Is Needed to Ensure
    the Electronic Fraud Detection System Meets Federal
               Government Security Standards




                                                        Page 14
A Complete Certification and Accreditation Is Needed to Ensure
    the Electronic Fraud Detection System Meets Federal
               Government Security Standards




                                                        Page 15
A Complete Certification and Accreditation Is Needed to Ensure
    the Electronic Fraud Detection System Meets Federal
               Government Security Standards




                                                        Page 16
A Complete Certification and Accreditation Is Needed to Ensure
    the Electronic Fraud Detection System Meets Federal
               Government Security Standards




                                                        Page 17
